                        Incurred Costs Audit for
                    Fiscal Year Ended March 31, 2003

                                  June 2005

                     Reference Number: 2005-1C-060




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            June 28, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Incurred Costs Audit for Fiscal Year Ended March 31, 2003
                              (Audit #20051C0217)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       December 12, 2003, certified final indirect cost rate proposal and related books and
       records for reimbursement of Fiscal Year (FY) 2003 incurred costs. The purpose of the
       examination was to determine the allowability of direct and indirect costs and to
       establish audit determined indirect cost rates for April 1, 2002, through
       March 31, 2003. The proposed rates apply primarily to flexibly priced contracts.

       The DCAA questioned $30,569,509 of the contractor’s claimed overhead and general
       and administrative (G&A) expenses. The contractor has agreed to all questioned costs
       except for $22,898,694 of questioned executive compensation and $823,699 of
       questioned overhead effect on the G&A. Also, the DCAA questioned $4,695,924 in
       claimed pension cost. According to the DCAA, this questioned cost is the result of their
       reconciliation of the claimed pension costs to the contractor’s pension policies and
       procedures.

       The DCAA opined that the contractor’s indirect rates are not acceptable as proposed.
       However, claimed direct costs, except for the qualifications discussed above, are
       acceptable and provisionally approved pending final acceptance. The DCAA indicated
       the questioned indirect costs are subject to the penalties provided in Federal Acquisition
       Regulation 42.709.
                                            2




The DCAA classified the subcontract costs for FY 2003 as unresolved, pending receipt
of requested assist audits. Also, the contractor’s home office has been cited for a
noncompliance with Cost Accounting Standard 405 for failing to identify and exclude
expressly unallowable costs from its incurred cost submission. Therefore, the audit
results are qualified to the extent that a final determination on this noncompliance may
lead to additional questioned costs.

The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.

If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
